Case: 20-10346

Date Filed: 03/30/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10346-C

RICKY WILLIAMS,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF
CORRECTIONS,
ATTORNEY GENERAL, STATE OF
FLORIDA,
Respondents-Appellees.

Appeal from the United States District Court
for the Southern District of Florida

ORDER:
Ricky Williams’s motion for a certificate of appealability is DENIED because he has failed
to make a substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).

/s/ William H. Pryor Jr.
UNITED STATES CIRCUIT JUDGE

Case: 20-10346

Date Filed: 05/11/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10346-C
RICKY WILLIAMS,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF
CORRECTIONS,
ATTORNEY GENERAL, STATE OF
FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
Before: WILLIAM PRYOR and ROSENBAUM, Circuit Judges.
BY THE COURT:
Ricky Williams has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2, of
this Court’s March 30, 2020, order denying him a certificate of appealability. Upon review,
Williams’s motion for reconsideration is DENIED because he has offered no new evidence or
arguments of merit to warrant relief.

Case: 0:17-cv-62420-UU

Document

26 Entered on FLSD Docket: 12/30/2019

Page 1 of 6

c

UNITED §TATES DISTRICT COURT
SOUTHEEN DISTRICT OF FLORIDA
. v

1

Case Nc.: 0:17-cv-21863-UU/LMM
RICKY WILLIAMS,
Petitioner,
v.

. j

SEC’Y, FLA. DEPT OF CORR.,
et at.

i

Respondents.

ORDER ON MAGISTRATE’S REPORT AND RECOMMENDATION
This Cause is before the Court apon Petitioner’s pro se Petition for Writ of Habeas Corpus
Pursuant to 28 U.S.C. § 2254 (the “Pe ition”) (D.E. 1).
THE COURT has reviewed the Petition and pertinent parts of the record and is otherwise
fully advised in the premises.
This matter was referred to Magistrate Judge Lisette M. Reid who, on October 1, 2019,
issued a Report (D.E. 24) (the “Report ’) recommending that the Petition be denied because:
1. Petitioner’s claim that his counsel on direct appeal ineffectively filed a brief under
Anders v. California, 386 \ .S. 738 (1967), is unexhausted and procedurally barred;
2. The state post-conviction court’s rejection of Petitioner’s claim that his trial counsel
ineffectively failed to impe ch the complaining witness, Valle, with a prior inconsistent
statement was not contrary to, or an unreasonable application of, clearly established
federal law or an unreason'ble determination of the facts;
3. Petitioner’s claim that his irial counsel ineffectively failed to impeach other witnesses
with unidentified prior inconsistent statements fails because the claim is wholly
1

Case: 0:17-cv-62420-UU

Document

26 Entered on FLSD Docket: 12/30/2019

Page 3 of 6

contrary to, or an unreasonable application of, clearly established federal law or an
unreasonable determination of the facts:
9. The state post-conviction court’s rejection of Petitioner’s claim that his trial counsel
ineffectively advised him to reject an alleged 7-year plea offer because Valle (the
complainant) was nowhere to be found was not contrary to, or an unreasonable
application of, clearly established federal law or an unreasonable determination of the
facts;

i

10. The state post-conviction court’s rejection of Petitioner’s claim that his trial counsel
ineffectively failed to play for the jury the complaining witness’s sworn, videotaped
statement to the police was not contrary to, or an unreasonable application of, clearly
established federal law or an unreasonable determination of the facts;
11. The state post-conviction ecurt’s rejection of Petitioner’s conclusory claim that the trial
court erred in denying his motion for judgment of acquittal was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts;
12. The state post-conviction court’s rejection of Petitioner’s claims that the trial court
denied him due process oy instructing the jury on lesser-included offenses and
principals was not contrary to, or an unreasonable application of, clearly established
federal law or an unreasonable determination of the facts; and
13. The state post-conviction court’s rejection of Petitioner’s claim that the trial court the
trial court erred in denyingMs motion to correct sentencing on double jeopardy grounds
was not contrary to, or an Unreasonable application of, clearly established federal law
•

'

%

or an unreasonable determination of the facts.
1

3

Case: 0:17-cv-62420-UU

Document *: 26 Entered on FLSD Docket: 12/30/2019

Page 5 of 6

i

The state post-conviction court rejected the argument raised in Claim 9, reasoning that trial
counsel’s alleged advice was not deficient because it “did not ‘fall below an objective standard of
reasonableness because the absence o a critical prosecutorial witness would be a relevant factor
an attorney would consider when adviring his or her client whether to plead guilty.”’ D.E. 9-3 at
156-58 (quoting Berry v. State, 336 S.W.3d 159,166 (Mo. Ct. App. 2011)). The Report further
posits that counsel’s alleged misadvise was not deficient because, as an essential prosecution
witness, “it is arguable that counsel reasonably advised petitioner to reject the plea offer because,
absent [Valle’s] testimony, the prose cution could not prove its case.” D.E. 24 at 22; see also
Mostowicz v. United States, 625 F. Aop’x 489, 494 (11th Cir. 2015) (per curiam) (holding that
counsel’s advice to deny plea offer be cause the court might grant the motion to suppress was not
deficient). “Simply put, advice, although incorrect in retrospect, does not necessarily rise to the
level of ineffective assistance of counsel.” Mostowicz, 625 F. App’x at 494. “[A]n erroneous
strategic prediction ... is not necessar ly deficient performance.” Lafler v. Cooper, 566 U.S. 156,
174 (2012). The state post-conviction ourt’s finding that trial counsel did not perform deficiently
was not contrary to, or an unreasonable application of, clearly established federal law or an
unreasonable determination of the fact:-.
Moreover, to show Strickland prejudice regarding counsel’s advice whether to plead guilty,
a defendant “must allege and prove a r easonable probability, defined as a probability sufficient to
undermine confidence in the outcome, that (1) he ... would have accepted the offer had counsel
advised [him] correctly, (2) the prosecutor would not have withdrawn the offer, (3) the court would
have accepted the offer, and (4) the cc iviction or sentence, or both, under the offer’s terms would
have been less severe than under thej dgment and sentence that in fact were imposed.” Alcorn v.

5

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 1 of 31

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO.: 17-62420-CV-UNGARO
MAGISTRATE JUDGE REID
RICKY WILLIAMS,
Petitioner,
v.

SEC’Y, DEP’T OF CORRECTIONS et al.,
Respondents.

REPORT OF MAGISTRATE JUDGE
Petitioner has filed a pro se petition for writ of habeas corpus under 28 U.S.C.
§ 2254. His habeas petition attacks the constitutionality of his judgment of
conviction for strongarm robbery. The trial court entered this judgment following a
jury verdict in Case No. 10-007927-CF-10A, Seventeenth Judicial Circuit of Florida,
Broward County.
The undersigned has reviewed the entire record, including the operative §
2254 petition. [ECF 1]. As discussed below, the petition should be DENIED.

l

Case: 0:17-cv-62420-UU

Document#: 24 Entered on FLSD Docket: 10/01/2019

Background

I.
A.

Page 2 of 31

Information and Trial Testimony
The state charged petitioner with strongarm robbery. [ECF 9-1, p. 7].1 The

case went to trial. The following witnesses gave the following relevant testimony.
1.

Jose Valle
\

On the night in question, Valle was walking in public. [ECF 10-2, pp. 5,11].
Two black men approached him. The bigger guy grabbed him, choked him, and
threw him on the ground. [Id. pp. 6-8].
The robbers took his wallet and $140 [Id. pp. 7-8, 18-19]. Shortly thereafter,
a patrol car passed by. The robbers started to run, but Valle never lost sight of them.
[Id. pp. 8-9, 15-16, 20].
Valle pointed out the robbers to the officer, who pursued them. Later, on or
near the scene, Valle identified the robbers to the police as the men who robbed him.
[Id. pp. 9-10].
Valle admitted that he drank, but claimed on that night he had had one drink.
[Id. pp. 7, 10, 11, 17]. He was not drunk when the men robbed him. [Id. p. 18].

1 All page citations for ECF entries refer to the page-stamp number located at the top, right-hand
comer of the page.
2

case: o:i/-cv-b242U-uu

Document #: 24 Entered on FLSD Docket: 10/01/2019

2.

Page 3 of 31

Lee Martin

Martin is a police officer for the Broward County Sheriffs Office (“Sheriffs
Office”). [Id. pp. 21-22]. On that night, Martin was on patrol. [Id. pp. 22-24]. An
anxious Valle flagged him down. [Id. p. 24]. Valle pointed out two black men who
were 30 to 40 feet away. [Id. pp. 25-26]. Martin called for the men to come back.
[Id. p. 25]. One of them, Mr. Allen, complied; the other fled. [Id.]
The fugitive wore dark shorts and a white T-shirt. [Id. p. 26]. He was detained
within minutes. [Id. p. 27].
3.

James Ippolito

Ippolito was riding with Martin as a citizen observer. [Id. pp. 29-30]. A
panicking Valle flagged them down and said that he had been robbed. [Id. pp. 3031]. Valle pointed out two black males who were walking away at 40 to 50 yards.
[Id. pp. 31-32]. One of the men, who wore red shorts and a white shirt, fled. [Id. pp.
32, 36].
Ippolito did a “show-up identification” approximately five minutes later after
another officer had detained the fugitive. [Id. p. 37]. Valle identified the fugitive as
one of the robbers. [Id. p. 33]. Ippolito identified petitioner in court as the fugitive.
[Id. pp. 33-34].

3

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

4.

Page 4 of 31

Danny Freiberger

Freiberger is a police officer for the Sheriffs Office. [Id. p. 38]. Freiberger
received an alert regarding a suspect wearing a white T-shirt and dark shorts. [Id. p.
39]. Freiberger detained a man wearing a white shirt within two blocks of the
robbery. [Id. pp. 39-40]. Freiberger identified petitioner in court as that individual.
[Id. at 40]. Freiberger searched petitioner and found only eight $1 bills. [Id. pp. 4243]. Valle identified petitioner as a robber during the show-up identification. [Id. pp.
45-46].
5.

Trevor Goodwin

Goodwin is a detective for the Sheriffs Office. [Id. p. 47]. Goodwin
interviewed petitioner on that night. [Id. p. 48].
The prosecutor played the video of the interview in court. [Id. pp. 49-50].
During the interview, petitioner initially said that he did not know anything about a
robbery and did not see anything happen. [Id. pp. 56-58]. Petitioner then said that
Valle wanted to buy marijuana and got mad because petitioner did not have it. [Id.
p. 58].
Also during the interview, petitioner initially denied touching Valle. [Id. p.
59]. Goodwin then stated that the investigators found petitioner’s DNA on Valle.
[Id. pp. 59-60]. After that, petitioner stated that he “could have touched” Valle. [Id.
4

uase: u:i/,-cv-b242U-uu

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 5 of 31

p. 60]. Further, petitioner stated that Valle had grabbed him and that Valle was “very
drunk.” [Id. pp. 61-62].
Goodwin testified that he falsely told petitioner that the investigators found
his DNA on Valle as a “detective ploy.” [Id. p. 66]. The ploy worked because
petitioner “[w]ent from not knowing him to I made contact with him.” [Id.\
Goodwin recovered eight $1 bills on petitioner. [Id. p. 68].
Petitioner did not testify or call any witnesses.
B.

Verdict and Post-Trial Proceedings
The jury found petitioner guilty of strongarm robbery. [Id. p. 126]. The trial

court sentenced him to 30 years in prison as a habitual felony offender, with a 15year mandatory minimum as a prison releasee reoffender. [ECF 9-1, pp. 10-21].
After his attorney filed an Anders brief, petitioner filed a pro se appeal. [Id.
pp. 23, 26]. The Fourth District Court of Appeal (“Fourth District”) affirmed without
comment. [Id. p. 81].
Petitioner filed a postconviction motion, which he twice amended. The
postconviction court entered a corrected order directing petitioner to file a legally
sufficient postconviction motion as to claim 5. [ECF 9-3, p. 27]. The court otherwise
denied petitioner’s second amended postconviction motion for the reasons in the
state’s response. [Id.] Later, the court denied petitioner’s motion for postconviction
relief amending claim 5 for the reasons in the state’s response. [ECF 9-4, p. 204].
5

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 6 of 31

Petitioner appealed. The Fourth District affirmed without comment. [Id. p.
237].
Petitioner filed a § 2254 motion. [ECF 1]. The state filed a response, [ECF 8],
and supporting appendices, [ECF 9; 10]. Petitioner replied. [ECF 13]. In his reply,
petitioner does not address the state’s arguments and contends that the
postconviction court erred by not conducting an evidentiary hearing. Furthermore,
petitioner requests a federal evidentiary hearing.
II.

f

Legal Standard Under 28 U.S.C. § 2254

Title 28 U.S.C. § 2254(d) sets forth the following standards for granting
federal habeas corpus relief:
An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted
with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
Under § 2254(d)(1)’s “contrary to” clause, courts may grant the writ if the
state court: (1) reaches a conclusion on a question of law opposite to that reached by
the Supreme Court; or (2) decides a case differently than the Supreme Court has on
6

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 7 of 31

materially indistinguishable facts. Williams v. Taylor, 529 U.S, 362, 412-13 (2000).
Under its “unreasonable application” clause, courts may grant the writ if the state
court identifies the correct governing legal principle from the Supreme Court’s
decisions but unreasonably applies that principle to the facts of the case. Williams,
529 U.S. at 413. “[Cjlearly established Federal law” consists of Supreme Court
“precedents as of the time the state court renders its decision.” Greene v. Fisher, 565
U.S. 34, 38 (2011) (citation and emphasis omitted).
An unreasonable application of federal law differs from an incorrect
application of federal law. Renico v. Lett, 559 U.S. 766, 773 (2010) (citation
omitted). For § 2254(d)(1) purposes, the application must be “objectively
unreasonable.” Id. (citation omitted). “This distinction creates a substantially higher
threshold for obtaining relief than de novo review.” Id. (citation omitted). Under this
standard, “a state prisoner must show that the state court’s ruling .. . was so lacking
in justification that there was an error well understood and comprehended in existing
law beyond any possibility for fairminded disagreement.” Harrington v. Richter, 562
U.S. 86, 103 (2011).
Courts “apply this same standard when evaluating the reasonableness of a
state court’s decision under § 2254(d)(2).” Landers v. Warden, 776 F.3d 1288, 1294
(11th Cir. 2015). That is, “[a] state court’s ... determination of facts is unreasonable

7

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 8 of 31

only if no ‘fairminded jurist’ could agree with the state court’s determination.” Id.
(citation omitted).
Under § 2254(d), “when the last state court to decide a prisoner’s federal claim
explains its decision on the merits in a reasoned opinion[,]” “a federal habeas court
simply reviews the specific reasons given by the state court and defers to those
reasons if they are reasonable.” Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018).
However, when the decision of the last state court to decide a prisoner’s
federal claim contains no reasoning, federal courts must ‘“look through’ the
unexplained decision to the last related state-court decision that does provide a
relevant rationale.” Id. “It should then presume that the unexplained decision
adopted the same reasoning.” Id.
A contrastable situation occurs when the decision of the last state court to
decide a federal claim contains no reasoning and there is “no lower court opinion to
look to.” Id. at 1195. In this case, “it may be presumed that the state court adjudicated
the claim on the merits in the absence of any indication or state-law procedural
principles to the contrary.” Richter, 562 U.S. at 99 (citation omitted). Thus, in this
scenario, “[sjection 2254(d) applies even [though] there has been a summary
denial.” Cullen v. Pinholster, 563 U.S. 170, 187 (2011) (citation omitted). Because
§ 2254(d) applies, and because the last state court decision is unreasoned and there
is no lower court decision to look through to, “a habeas court must determine what
8

uase: u:i/-cv-bz4zu-uu

Document#: 24 Entered on FLSD Docket: 10/01/2019

Page 9 of 31

arguments or theories . . . could have supported[] the state court’s decisionf]”
Richter, 562 U.S. at 102.
III.

Ineffective Assistance of Counsel Principles

To establish a claim of ineffective assistance of counsel, petitioner must show
that his attorney’s performance was deficient and that the deficient performance
prejudiced his defense. Strickland v. Washington, 466 U.S. 668, 687 (1984).
To prove deficiency, he must show that his attorney’s performance “fell below
an objective standard of reasonableness” as measured by prevailing professional
norms. Id. at 688. Courts must “indulge a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional assistance.” Id. at 689.
To prove prejudice, petitioner “must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. A reasonable probability is “a probability
sufficient to undermine confidence in the outcome.” Id.
It is “all the more difficult” to prevail on a Strickland claim under § 2254(d).
Richter, 562 U.S. at 105. As the standards that Strickland and § 2254(d) create are
both “highly deferential,” review is “doubly” so when the two apply in tandem. Id.
(citation omitted). Thus, “[wjhen § 2254(d) applies, the question is not whether
counsel’s actions were reasonable.” Id. Rather, “[tjhe question is whether there is
any reasonable argument that counsel satisfied Strickland’s deferential standard.” Id.
9

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 10 of 31

Petitioner has the burden of proof on his ineffectiveness claim, Holsey v.
Warden, 694 F.3d 1230,1256 (11th Cir. 2012), as well as the burden of proof under
§ 2254(d), Pinholster, 563 U.S. at 181.
IV.
A.

Analysis

Claim 1
Claim 1 is procedurally barred. Petitioner appears to argue that counsel

ineffectively filed an Anders brief because he did not have grounds to do so. See
[ECF 1, p. 6]. On direct appeal, counsel filed an Anders brief. [ECF 9-4, p. 248]. The
Fourth District allowed counsel to withdraw, stating that “the appeal [was] wholly
frivolous.” [Id. p. 264]. This claim is unexhausted because petitioner did not raise it
in state court. See [ECF 9-1, pp. 193-229]. See also Baldwin v. Reese, 541 U.S. 27,
29 (2004) (citation omitted).
An unexhausted claim is procedurally defaulted for purposes of federal habeas
review if the court to which the petitioner would be required to present the claim in
order to meet the exhaustion requirement would now find the claim procedurally
barred. See Raleigh v. Sec’y, Fla. Dep’t of Corr., 827 F.3d 938, 956-57 (11th Cir.
2016) (citation omitted).
Under Florida law, a defendant generally must file a Rule 3.850 motion within
two years after his “judgment and sentence become final.” Fla. R. Crim. P. 3.850(b).
“A judgment and sentence become final for the,purpose of rule 3.850 when any
10

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 12 of 31

or prejudice. [ECF 9-3, pp. 27, 50, 149-51]. The Fourth District affirmed without
comment. [ECF 9-4, p. 237].
Here, the postconviction court reasonably concluded that counsel’s failure to
so impeach Valle did not prejudice petitioner. The court reasonably could have
concluded that, had counsel so impeached Valle, there was no reasonable probability
of a more favorable outcome.
Valle testified that two men robbed him. Officers Martin and Ippolito found
him in a nervous and agitated state. Valle immediately pointed out two men to them,
one of whom fled. The officers set up a perimeter and found a man in the vicinity
who matched the description of the fugitive. Shortly thereafter, Valle identified that
man as petitioner. Likewise, Ippolito and Freiberger identified that man in court as
petitioner. Moreover, although petitioner denied robbing Valle during his interview
with Goodwin, he changed his story and acknowledged that there was physical
contact between them. True, the officers did not discover the $140 or Valle’s wallet
on petitioner. However, petitioner could have discarded the property while fleeing;
the state so argued during closing argument.
On this record, the jury could have believed Valle’s trial testimony versus the
prior inconsistent statement. Furthermore, counsel attacked Valle’s credibility
during closing argument, and the jury evidently rejected these arguments in finding
petitioner guilty.
12

Case: 0:17-cv-62420-UU

Document#: 24 Entered on

hlsd

uocKet: iu/ui/2uiy

page 11 ot

direct review proceedings have concluded and jurisdiction to. entertain a post­
conviction motion returns to the trial court.” Lewis v. State, 196 So. 3d 423,424 (Fla.
4th DC A 2016) (citation omitted). Where, as here, the defendant does not pursue an
appeal to the Florida Supreme Court, this occurs when the District Court of Appeals
issues its mandate. Miller v. State, 601 So. 2d 604, 604 (Fla. 4th DCA 1992)
(citations omitted).
Here, the Fourth District issued its mandate affirming petitioner’s conviction
on September 28, 2012. [ECF 9-1, p. 83]. More than two years have elapsed since
this date. Petitioner could not return to state court and raise this claim; the court
would deny it as untimely.
In sum, claim 1 is procedurally defaulted.
B.

Claim 2
Claim 2 lacks merit. Petitioner alleges that counsel ineffectively failed to

impeach Valle. As noted, Valle testified that the men took $140 from him. However,
Officer Martin’s report says that Valle told the officers that petitioner took the eight
$1 bills that the officers found on petitioner. [ECF 9-3, p. 40]. Petitioner suggests
that, had counsel impeached Valle with this prior inconsistent statement, the
outcome would have been different.
Petitioner raised this claim in state court. [ECF 9-1, pp. 199-202; ECF 9-3,
pp. 36-39]. The postconviction court held that petitioner could not show deficiency
11

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 13 of 31

Additionally, had counsel so impeached Valle, the state could have introduced
statements Valle made during a sworn, videotaped interview with investigators after
the robbery “to rebut an express or implied charge . . . of. . . recent fabrication^]”
Fla. Stat. § 90.801(2)(b). During that interview, Valle stated that the robbers “took
$140 . . . [and his] wallet.” [ECF 9-4, p. 191]. Thus, it is arguable that counsel
reasonably decided not to so impeach Valle.
In sum, the state courts’ rejection of claim 2 was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
C.

Claim 3
Claim 3 lacks merit. Petitioner contends that counsel ineffectively failed to

impeach witnesses with prior inconsistent statements. However, petitioner has not
identified these alleged inconsistencies. [ECF 1, p. 9]. Hence, this claim is wholly
conclusory and fails for this reason alone. See McFarland v. Scott, 512 U.S. 849,
856

(1994)

(“Habeas

corpus petitions must meet heightened pleading

requirements^]...”); see also Wilson v. United States, 962 F.2d 996, 998 (11th Cir.
1992) (per curiam) (“Conclusory allegations of ineffective assistance are
insufficient.” (citation omitted)).
Furthermore, this claim would fail even if it were adequately alleged. In the
postconviction court, petitioner contended that counsel ineffectively failed to
13

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 14 of 31

impeach Valle with three prior inconsistent statements: (1) the man the officers
detained was not wearing red shorts; (2) the robbers took $120 from him; and (3) the
robbers took $8 from him. [ECF 9-3, pp. 36-39]. The court held that he could not
show deficiency or prejudice. [Id. pp. 27, 50, 149-51]. The Fourth District affirmed
without comment. [ECF 9-4, p. 237].
Here, the postconviction court reasonably concluded that, had counsel so
impeached Valle, there was no reasonable probability of a more favorable outcome.
The undersigned already addressed the third inconsistency and declines to do so
further. Regarding the second, it is not materially inconsistent with Valle’s testimony
that the men stole $140. And, again, Valle stated during his interview that the robbers
took $140. The state could have introduced this statement to rebut the charge of
recent fabrication.
Regarding the first, petitioner did not testify at trial that the robbers wore red
shorts. Furthermore, although Ippolito testified that the fugitive wore red shorts,
Martin and Freiberger testified that he wore dark shorts. Thus, petitioner’s prior
statement that the man he identified on the scene was not wearing red shorts did not
materially contradict the state’s trial testimony. And, even if it did, the state would
have been able to rebut the charge of recent fabrication with statements from the
interview expressing confidence in his identification of petitioner. See [ECF 9-4, pp.
196-97].
14

case: u:i7-cv-62420-uu

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 15 of 31

In sum, the state courts’ rejection of this claim was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
D.

Claim 4
Claim 4 lacks merit. Petitioner contends that counsel ineffectively failed to

strike juror Castro because he expressed bias. [ECF 1, p. 11]. During jury selection,
defense counsel asked the jurors if hearing anything related to drugs would affect
their ability to sit as a juror. [ECF 10-1, pp, 74-75]. Castro answered “Yes.” [Id. p.
75]. Castro did not elaborate and counsel did not ask any follow-up questions.
The postconviction court rejected this claim, holding that: (1) the record
refuted the claim; and (2) petitioner did not show deficiency or prejudice. [ECF 9-3,
pp. 27,151-53]. The Fourth District affirmed without comment. [ECF 9-4, p. 237].
Here, it is arguable that counsel’s failure to move to strike Castro was not
deficient. Petitioner stated that he participated in jury selection and found the
selected jury acceptable. His consent to the selected jury “[is] probative of the
reasonableness of the chosen strategy and of trial counsel’s performance.” Bell v.
Evatt, 72 F.3d 421, 429 (4th Cir. 1995); see also Pitts v. Sec’y, DOC & Fla. Att'y
Gen., No. 2:15-CV-13-FTM-29MRM, 2016 WL 128559, at *5 (M.D. Fla. Jan. 12,
2016) (“If the Defendant consents to counsel’s strategy, there is no merit to a claim
of ineffective assistance of counsel.” (citation omitted)). Furthermore, while Castro
15

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 16 of 31

said that drugs could affect his ability to sit as a juror, he did not elaborate.
Immediately thereafter, counsel asked the jurors if they would like to discuss
anything that had come up during jury selection and Castro did not speak. [ECF 101, p. 5]. Thus, on the whole, the record indicates that counsel did not question
Castro’s ability to be a fair and impartial juror. Accordingly, there is a reasonable
argument that counsel’s failure to move to strike Castro was not deficient.
In sum, the state courts’ rejection of claim 4 was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
i

determination of the facts.
E.

Claim 5
Claim 5 lacks merit. Petitioner contends that counsel unprofessionally

accused Valle of being a drunk during cross-examination. [ECF 1, p. 17]. This
unprofessionalism allegedly caused the judge to cut off any further inquiry regarding
his alleged alcoholism. The postconviction court rejected this claim summarily.
[ECF 9-3, pp. 27, 153-55]. The Fourth District affirmed without comment. [ECF 94, p. 237].
During cross-examination, the judge sustained the prosecutor’s objection to
the question, “[Yjou’re a drunk, correct[?]” [ECF 10-2, p. 18]. However, counsel
extensively cross-examined Valle about whether he was drunk on the night in

16

case: u:i/-cv-b2420-uu

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 17 of 31

question and an alcoholic in general. [Id. pp. 11-13,17-18]. Counsel also made these
points during closing argument.
Even if the question was legally objectionable, it is arguable that it was not
deficient because it promoted petitioner’s defense theory. And, for this and other
reasons, the postconviction court reasonably concluded that the question did not
prejudice petitioner.
In sum, the state courts’ rejection of this claim was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
F.

Claim 6
Claim 6 is conclusory and somewhat unclear. Petitioner appears to allege that

counsel ineffectively failed to: (1) cross-examine Valle, Martin, and Goodwin with
prior inconsistent statements; and (2) call Allen (the other robber) to contradict the
state’s story. [ECF 1, p. 17]. Petitioner adds that counsel was “never prepared.” [Id.]
The postconviction court rejected this claim, holding that petitioner could not show
deficiency or prejudice. [ECF 9-3, p. 50; ECF 9-4, p. 204]. The Fourth District
affirmed without comment. [ECF 9-4, p. 237].
Alleged deficiency (1) is a rehash of claims 2 and 3 and fails for the same
reasons. Regarding alleged deficiency (2), the record does not indicate why counsel
failed to call Allen. Therefore, the court must “presume that . . . what witnesses
17

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 18 of 31

[defense counsel] ... did not present[] [was an] act[] that some reasonable lawyer
might do.” Jones v. Campbell, 436 F.3d 1285, 1293 (11th Cir. 2006) (citation
omitted). Notably, Freiberger testified that Allen gave the police petitioner’s name,
telling them that “Ricky” fled the scene. [ECF 9-3, p. 53; ECF 10-2, p. 43]. Thus,
counsel likely concluded that any testimony from Allen would have been
incriminating. And the contention that counsel was not otherwise “prepared” for trial
is completely conclusory.
In sum, the state courts’ rejection of claim 6 was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
G.

Claim 7
Claim 7 lacks merit. The trial court sentenced petitioner 30 years in prison as

a habitual felony offender, with a 15-year mandatory minimum sentence as a prison
releasee reoffender. [ECF 9-1, pp. 18-19].
Petitioner alleges that counsel misadvised him as to his eligibility for gain
time and the length of the sentence to be imposed. [ECF 1, p. 18]. This misadvice,
he adds, caused him to reject a more favorable plea offer. [Id.]
Petitioner does not allege any facts to support this claim even though the court
earlier granted him leave to amend his petition for this purpose. [Id.] See also [ECF

18

uase: u:i/,-cv-bZ4zu-uu

Document#; 24 Entered on FLSD Docket: 10/01/2019

Page 19 of 31

11; 12; 13]. This claim is wholly conclusory and fails for this reason alone. See
McFarland, 512 U.S. at 856; Wilson, 962 F.2d at 998.
This claim would fail even if it were adequately pleaded. Petitioner argued in
his postconviction motion that counsel misadvised him that he could be sentenced
as a habitual felony offender or prison releasee reoffender, but not both. [ECF 9-1,
pp. 221-22]. The postconviction court rejected this claim, holding that he could not
show prejudice. [ECF 9-3, pp. 27, 155-56]. The Fourth District affirmed without
comment. [ECF 9-4, p. 237].
The postconviction court’s decision was reasonable. Petitioner conceded that
he knew that the state sought both enhancements. [ECF 9-1, pp. 221-22]. See also
[ECF 9-4, pp. 184-85 (the state’s notices thereof)]. Furthermore, because the state
charged petitioner with a second-degree felony, petitioner faced a 30-year maximum
habitual felony offender sentence. Fla. Stat. § 775.084(4)(a)2. And the court imposed
a 30-year sentence. Thus, petitioner cannot show that counsel’s alleged misadvice
that the court could not impose both enhancements prejudiced him. The record
shows that he knew that, if he went to trial, he could receive the sentence that the
court imposed. Petitioner has not alleged here or below that he lacked such
awareness. [ECF 1 at 18; ECF 9-1, pp. 221-22; ECF 9-3, p. 155].
Furthermore, petitioner maintained his innocence during his interview with
Goodwin and at trial. This fact, likewise, indicates that petitioner had no intention to
19

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 20 of 31

accept the putative plea offer. Osley v. United States, 751 F.3d 1214,1224 (11th Cir.
2014) (denial of guilt is “a relevant consideration” in determining whether the
defendant “would have accepted the government’s plea offer”).
In sum, the state courts’ rejection of this claim was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
H.

Claim 8
Petitioner contends that counsel ineffectively failed to object to the standard

jury instruction on principals. [ECF 1, p. 18]. Petitioner reasons that the instruction
was improper because he “was charged solo for the case[.]” [Id.] The state court
rejected this claim, holding that petitioner could not show deficiency. [ECF 9-3, pp.
27, 156]. The Fourth District affirmed without comment. [ECF 9-4, p. 237]. As
discussed below, it is arguable that counsel’s failure to object to the instruction was
not deficient.
Jury instructions requested by the State “must relate to issues concerning
evidence received at trial.” Lewis v. State, 693 So. 2d 1055, 1057 (Fla. 4th DCA
1997) (citations omitted). “Therefore, it is generally error to instruct the jury on
principals where there is no evidence to support an aiding and abetting theory of
guilt because the jury may be confused by the instruction.” Id.

20

uase: u:i/-cv-b242u-uu

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 21 of 31

Here, it is arguable that Valle’s testimony warranted an instruction on
principals. The evidence supported reasonable inferences that: (1) petitioner threw
Valle down; (2) Allen took Valle’s wallet; and (3) Allen then gave the wallet to
J

petitioner, who got rid of it before being detained. Consistent with these reasonable
inferences, the state argued that petitioner threw Valle down and left open the
possibility that Allen took the property, at least initially. See [ECF 10-2, p. 104
(“Regardless of whether [petitioner] or Mr. Allen took the wallet, [petitioner] played
a significant role in committing this crime.” (emphasis added))]. Thus, it is arguable
that the instruction on principals related to issues concerning evidence received at
trial. Consequently, the judge likely would have overruled any objection to said
instruction. See Freeman v. Att’y Gen., 536 F.3d 1225, 1233 (11th Cir. 2008) (“A
lawyer cannot be deficient for failing to raise a meritless claim[.]” (citation
omitted)).
In sum, the state courts’ rejection of this claim was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
I.

Claim 9
Claim 9 lacks merit. Petitioner alleges that counsel misadvised him to reject

the state’s alleged 7-year plea offer. In support, petitioner alleges that counsel told
him before trial that Valle was “[nowhere] to be found.” [ECF 1, p. 19]. Further,
21

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 22 of 31

petitioner alleges that counsel told him that the prosecution could not convict him
without Valle’s testimony. [Id.] However, Valle testified, the jury convicted
petitioner, and the court sentenced him to 30 years in prison. Therefore, counsel’s
alleged misadvice prejudiced him. See [id.]
The postconviction court rejected this claim, holding that petitioner failed to
show deficiency. [ECF 9-3, pp. 27, 157]. The court reasoned that the “trial court’s
alleged advice did not ‘fall below an objective standard of reasonableness because
the absence of a critical prosecutorial witness would be a relevant factor an attorney
would consider when advising his or her client whether to plead guilty.’” [Id. p. 157
(quoting Berry v. State, 336 S.W.3d 159, 166 (Mo. Ct. App. 2011))]. The Fourth
District affirmed without comment. [ECF 9-4, p. 237].
This claim is conclusory and fails for this reason alone. See McFarland, 512
U.S. at 856; Wilson, 962 F.2d at 998. Petitioner has not alleged any details about any
communications between him and counsel regarding the purported 7-year plea offer.
Furthermore, it is arguable that counsel’s alleged misadvice was not deficient.
Valle was an essential prosecutorial witness. Thus, it is arguable that counsel
reasonably advised petitioner to reject the plea offer because, absent his testimony,
the prosecution could not prove its case. Berry, 336 S.W.3d at 166; see also
Mostowicz v. United States, 625 F. App’x 489, 494 (11th Cir. 2015) (per curiam)
(counsel’s advice to deny plea offer because court might grant motion to suppress,
22

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 23 of 31

which would have led to a more favorable outcome, was not deficient). True,
counsel’s alleged prediction that Valle would not appear for trial was incorrect.
However, “a mistaken prediction is not enough in itself to show deficient
performance, even when that mistake is greatf.]” United States v. Barnes, 83 F.3d
934, 940 (7th Cir. 1996); see Lafler v. Cooper, 566 U.S. 156, 174 (2012) (“[A]n
erroneous strategic prediction ... is not necessarily deficient performance.”).
In sum, the state courts’ rejection of this claim was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
J.

Claim 10
Claim 10 lacks merit. Petitioner contends that counsel ineffectively failed to

play for the jury Valle’s sworn, videotaped statement to the police after the robbery.
[ECF 1, p. 19]. Petitioner contends that, had counsel played the video, the jury would
have heard his slurred speech and inconsistent statements. [Id.] This would have
“supported [the] fact that [Valle] was surely intoxicated at the time he falsely
accused [petitioner] of . . . robbery[.]” [Id.] “And for this cause the verdict would
have been different.” [Id.]
The postconviction court rejected this claim, holding that petitioner failed to
show deficiency. [ECF 9-3, pp. 27, 158-59]. The court reasoned, inter alia, that: (1)
the statement would have harmed petitioner because the victim cried during the
23

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 24 of 31'

interview and expressed concerns about his and others’ safety; and (2) it was
consistent with his testimony. [Id.] The Fourth District affirmed without comment.
[ECF 9-4, p.237].
Flere, it is arguable that counsel did not deficiently fail to play the video for
the jury. Playing the video likely would have prejudiced the defense because: (1)
Valle’s statements were consistent with his trial testimony; and (2) he cried
throughout it and expressed safety concerns. [Id. pp. 190-202].
True, Valle stated, without elaboration, “I’m a drunk” during the interview.
[Id. at 198]. However, as the postconviction court found, it appears that he “merely
meant that he is not God and it is not his place to judge othersf]” [ECF 9-3, p. 158].
See also [ECF 9-4, p. 198]. Furthermore, consistent with his trial testimony, Valle
stated earlier in the interview, “I drink, no drugs.” [ECF 9-4, p. 191].
In sum, the state courts’ rejection of this claim was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
K.

Claim 11
Claim 11 lacks merit. Petitioner conclusorily contends that the trial court

violated his federal rights by denying his motion for judgment of acquittal. [ECF 1,
p. 21; ECF 9-1, p. 29]. The Fourth District rejected this “wholly frivolous” claim.
[ECF 9-1, p. 81; ECF 9-4, p. 264].
24

uase:. u:i/'-cv-b242u-uu

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 25 of 31

“[Florida] Rule [of Criminal Procedure] 3.380(a) provides that a motion for
judgment of acquittal should be granted if, at the close of the evidence, the court is
of the opinion that the evidence is insufficient to warrant a conviction.” Tibbs v.
State, 397 So. 2d 1120,1123 n.9 (Fla. 1981). “There is sufficient evidence to sustain
a conviction if, after viewing the evidence in the light most favorable to the State, a
rational trier of fact could find the existence of the elements of the crime beyond a
reasonable doubt.” Baugh v. State, 961 So. 2d 198, 204 (Fla. 2007) (citation
omitted). As indicated above, supra Part 1(A), the state’s evidence was sufficient for
a rational juror to find that petitioner robbed Valle, especially when taken in the most
favorable light.
In short, the Fourth District’s rejection of this claim was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
L.

Claim 12
Claim 12 lacks merit. Petitioner contends that the trial court violated due

process by instructing the jury on: (1) the lesser-included offenses of battery, petty
theft, and robbery by sudden snatching; and (2) principals. The Fourth District
rejected this “wholly frivolous” claim. [ECF 9-1, p. 81; ECF 9-4, p. 264].
Whether the instructions were proper under Florida law is an issue this habeas
court cannot reexamine. See Waddington v. Sarausad, 555 U.S. 179, 192 n.5 (2009)
25

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 26 of 31

(citation omitted). Thus, the issue is whether they “so infused the trial with
unfairness as to deny due process of law.” Estelle v. McGuire, 502 U.S. 62,75 (1991)
(citation omitted).
Here, petitioner has not meaningfully alleged, much less shown, such
unfairness. As discussed, the evidence supported an instruction on principals.
Furthermore, there is no indication that the instructions for robbery by sudden
snatching, battery, and petty theft rendered petitioner’s trial unfair. All these crimes
are listed as lesser-included offenses in the standard jury instructions. Fla. Std. Jury
Instr. (Crim.) 15.1. Petitioner has not meaningfully alleged, much less shown, that
“the allegations of [strongarm robbery] [do not] contain all the elements of the lesser
offense[s] and [that] the evidence at trial would [not] support a verdict on the lesser
offense.” Williams v. State, 957 So. 2d 595, 599 (Fla. 2007) (citation omitted). And
there is no indication that the inclusion of the lesser-included offenses, even if
improper, confused the jury or increased the likelihood of a conviction for strongarm
robbery.
In sum, the Fourth District’s rejection of this claim was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
M.

Claim 13

26

case: 0:l7-cv-62420-uu

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 27 of 31

Claim 13 fails. The trial court sentenced petitioner 30 years in prison as a
habitual felony offender, with a 15-year mandatory minimum sentence as a prison
releasee reoffender. [ECF 9-1, pp. 18-19].
On appeal, petitioner contended that this sentence violated double jeopardy.
The Fourth District rejected this claim, finding that it was “wholly frivolous.” [Id. p.
81; ECF 9-4, p. 264]. Petitioner has re-raised this claim here. [ECF 1, p. 22].
The Double Jeopardy Clause “protects against multiple punishments for the
same offense.” North Carolina v. Pearce, 395 U.S. 711, 717 (1969). This protection
“is designed to ensure that the sentencing discretion of courts is confined to the limits
established by the legislature.” Ohio v. Johnson, A61 U.S. 493, 499 (1984). “With
respect to cumulative sentences imposed in a single trial, the Double Jeopardy
Clause does no more than prevent the sentencing court from prescribing greater
punishment than the legislature intended.” Missouri v. Hunter, 459 U.S. 359, 366
(1983).
Under Florida law, the prison releasee reoffender statute “is properly viewed
as a mandatory minimum statute, [whose] effect is to establish a sentencing floor.”
Grant v. State, 770 So. 2d 655, 658 (Fla. 2000) (citation omitted). “If a defendant is
eligible for a harsher sentence pursuant to [the habitual offender statute] . . . , the
court may[.].. impose the harsher sentence.” Id. (citation omitted).

27

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 28 of 31

Here, petitioner was eligible for a 30-year sentence as a habitual felony
offender, and the trial court imposed this sentence. Thus, the Fourth District
reasonably concluded that this sentence did not violate double jeopardy.
In sum, the Fourth District’s rejection of this claim was not contrary to, or an
unreasonable application of, clearly established federal law or an unreasonable
determination of the facts.
IV.

Evidentiary Hearing

“[Bjefore a habeas petitioner may be entitled to a federal evidentiary hearing
on a claim that has been adjudicated [on the merits] by the state court, he must
demonstrate a clearly established federal-law error or an unreasonable determination
of fact on the part of the state court, based solely on the state court record.” Landers,
776 F.3d at 1295. Here, except claim 1, the state courts adjudicated petitioner’s
claims on the merits, and he has not demonstrated an error in clearly established
federal law or an unreasonable determination of fact. Thus, he is not entitled to an
evidentiary hearing on these claims.
Nor is he entitled to an evidentiary hearing on claim I. Because it is
unexhausted and procedurally defaulted, “the record ... precludes habeas relief[.]”
Schriro v. Landrigan, 550 U.S. 465, 474 (2007). Likewise, the court could
“adequately assess [petitioner’s] claim without further factual development.” Turner
v. Crosby, 339 F.3d 1247, 1275 (11th Cir. 2003).
28

uasc. vj.xf-uv-o/iH/'u-uu

uuuumtMii w. /lh

cniereu un i-lsu uocKei: ±u/ui/zuiy

Mage zy ot 31

Petitioner contends in his reply that the postconviction court erred in not
holding an evidentiary hearing. However, “[a] state prisoner has no federal
constitutional right to post-conviction proceedings in state court.” Lawrence v.
Branker, 517 F.3d 700, 717 (4th Cir. 2008) (citations omitted). Consequently,
challenges to a state’s collateral proceedings are not cognizable under § 2254. See,
e.g., Carroll v. Sec’y, DOC, 574 F.3d 1354,1365 (11th Cir. 2009). And, even if such
a claim were cognizable, the postconviction court’s failure to hold an evidentiary
hearing did not violate any clearly established federal law.
V.

Certificate of Appealability

“The district court must issue or deny a certificate of appealability when it
enters a final order adverse to the applicant.” Rule 11(a), Rules Governing § 2254
Cases. “If the court issues a certificate, the court must state the specific issue or
issues that satisfy the showing required by 28 U.S.C. § 2253(c)(2).” Id. “If the court
denies a certificate, the parties may not appeal the denial but may seek a certificate
from the court of appeals under Federal Rule of Appellate Procedure 22.” Id. “A
timely notice of appeal must be filed even if the district court issues a certificate of
appealability.” Rule 11(b), Rules Governing § 2254 Cases.
“A certificate of appealability may issue . . . only if the applicant has made a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
When a district court rejects a petitioner’s constitutional claims on the merits, “a
29

Case: 0:17-cv-62420-UU

Document #: 24 Entered on FLSD Docket: 10/01/2019

Page 30 of 31

petitioner must show that reasonable jurists could debate whether ... the petition
should have been resolved in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537
U.S. 322, 336 (2003) (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)). By
contrast, “[w]hen the district court denies a habeas petition on procedural grounds
without reaching the prisoner’s underlying constitutional claim, a [certificate of
appealability] should issue when the prisoner shows .. . that jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack, 529 U.S. at 484.
Here, the undersigned denies a certificate of appealability. If petitioner
disagrees, he may so argue in any objections filed with the district court. See Rule
11(a), Rules Governing § 2254 Cases (“Before entering the final order, the court
may direct the parties to submit arguments on whether a certificate should issue.”).
VI.

Recommendations

As discussed above, it is recommended that petitioner’s habeas petition [ECF
1] be DENIED; that no certificate of appealability issue; that final judgment be
entered; and that this case be closed.
Objections to this report may be filed with the district judge within fourteen
days of receipt of a copy of the report. Failure to file timely objections shall bar
30

uase: u:i/r-cv-b242i)-uu

Document#: 24 Entered on FLSD Docket: 10/01/2019

Page 31 ot 31

petitioner from a de novo determination by the district judge of an issue covered in
this report and shall bar the parties from attacking on appeal factual findings
accepted or adopted by the district judge except upon grounds of plain error or
manifest injustice. See 28 U.S.C. § 636(b)(1); Thomas v. Am, 474 U.S. 140, 148-53
(1985); RTC v. Hallmark Builders, Inc., 996 F.2d 1144, 1149 (11th Cir. 1993).
SIGNED this 1st day of October, 2019.

UNITED STATES MAGISTRATE JUDGE
Ricky Williams
639781
Gulf Correctional Institution
Inmate Mail/Parcels
500 Ike Steele Road
Wewahitchka, FL 32465
PRO SE
Mitchell A. Egber
Attorney General Office
1515 N Flagler Drive
9th Floor
West Palm Beach, FL 33401-3432
561-837-5000
Fax: 561-837-5099
Email: mitchell_egber@myfloridalegal.com
Noticing 2254 SAG Broward and North
Email: CrimAppWPB@MyFloridaLegal.com

31

Additional material
from this filing is
available in the
Clerk's Office.

